DECLARATION OF SERVICE

HONG TANG
Petitioner
V.

THE UNIVERSITY OF BALTIMORE, et al.
Respondents

As required by Supreme Court Rule 29.5(c), I hereby certify that on March 10, 2020,
three (3) copies of the corrected PETITION FOR A WRIT OF CERTIORARI and
APPENDIX were served, via first-class mail, on the following:
Lillian Lane Reynolds (Counsel for all respondents)
Office of the Attorney General of Maryland
Educational Affairs Division
200 St. Paul Place
Baltimore, MD 21202-2021

Pursuant to 28 U.S.C. ยง 1746, I declare under penalty of perjury that the foregoing
is true and correct.

Executed on

n\o.r. lo

., 2020

HONG TANG

